             United States Department of the Interior
                           OFFICE OF INSPECTOR GENERAL
                                  Washington,D.C. 20240

                                                                 MAR- 7 2005




Memorandum

To:           Acting Chief, United States Park Police

From:         Earl E. Devaney(J n c;'
                     General ~
              Inspector           L
Subject:      U.S. Park Police Compensatory Time

        Earlier this year, we initiated an evaluation at your request into the U.S. Park
Police's conversion of compensatory time to overtime payments. During fiscal years
2002 and 2003, the Park Police received supplemental funding appropriated by the
Congress to cover costs such as payment of overtime for increased security measures
required since the terrorist attacks on September 11,2001. In fiscal year 2004, this
supplemental funding was no longer available, although Park Police officers were still
required to work beyond their regular duty hours to meet the continued security demands,
which resulted in an increase in the amount of earned compensatory time.

        Accordingly, we expected to find a high rate of compensatory time converted to
overtime pay, which is calculated at time-and-a-half. While we did find that
compensatory time, both used or converted, represented a significant portion (66 percent)
of total overtime charges to the Park Police in fiscal year 2004, we also found that the
majority of compensatory time was used and did not convert to overtime pay at the rate
of time-and-a-half. We also found that overtime payments did not increase significantly
in 2004 because the Park Police shifted agency priorities and implemented 12-hour work
shifts.

       We want to thank you and your staff for your valuable input during our
evaluation. If you have any questions about the results of our evaluation please call me at
(202) 208-5745.
